No. 19-511

IN THE

Supreme Court of the United States
_______________
FACEBOOK, INC.,
Petitioner,
v.
NOAH DUGUID, individually and on behalf of
himself and all others similarly situated, ET AL.
Respondents.
_______________
On Writ Of Certiorari To The
United States Court Of Appeals
For The Ninth Circuit
_______________
BRIEF FOR SALESFORCE.COM, INC.,
AS AMICUS CURIAE
IN SUPPORT OF PETITIONER
_______________
KRISTIN A. LINSLEY
GIBSON, DUNN & CRUTCHER LLP
555 Mission Street
San Francisco, CA 94105

MARK A. PERRY
Counsel of Record
JACOB T. SPENCER
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
(202) 955-8500
MPerry@gibsondunn.com

Counsel for salesforce.com, inc.

TABLE OF CONTENTS
Page
INTEREST OF AMICUS CURIAE............................. 1
INTRODUCTION AND SUMMARY OF
ARGUMENT .......................................................... 3
ARGUMENT ............................................................... 6
I.

The Ninth Circuit’s Interpretation Of
“Automatic Telephone Dialing System”
Is Incorrect ...................................................... 6

II. The Ninth Circuit’s Interpretation Of
The Statute Leads To Absurd And
Pernicious Results .......................................... 9
III. The Ninth Circuit’s Interpretation
Conflicts With The Principle Of
Constitutional Avoidance ............................. 17
CONCLUSION .......................................................... 20

ii
TABLE OF AUTHORITIES
CASES

Page(s)

ACA Int’l v. FCC,
885 F.3d 687 (D.C. Cir. 2018) .............................. 12
Clark v. Martinez,
543 U.S. 371 (2005) .............................................. 17
Duran v. La Boom Disco, Inc.,
955 F.3d 279 (2d Cir. 2020) ............................. 8, 15
FCC v. Fox Television Stations, Inc.,
567 U.S. 239 (2012) .............................................. 19
Gadelhak v. AT&T Servs., Inc.,
950 F.3d 458 (7th Cir. 2020) ............................ 8, 12
Glasser v. Hilton Grand Vacations Co.,
948 F.3d 1301 (11th Cir. 2020) .................... 7, 8, 19
Grayned v. City of Rockford,
408 U.S. 104 (1972) .............................................. 18
Lamie v. U.S. Tr.,
540 U.S. 526 (2004) ................................................ 7
Marks v. Crunch San Diego, LLC,
904 F.3d 1041 (9th Cir. 2018) ...................... 8, 9, 19
Rimini St., Inc. v. Oracle USA, Inc.,
139 S. Ct. 873 (2019) .............................................. 9
Sessions v. Dimaya,
138 S. Ct. 1204 (2018) .......................................... 18

iii
TABLE OF AUTHORITIES
(continued)
CASES (continued)

Page(s)

Thompson v. W. States Med. Ctr.,
535 U.S. 357 (2002) .............................................. 18
STATUTES
47 U.S.C. § 227(a) .................................. 2, 6, 12, 16, 17
47 U.S.C. § 227(b) .............................. 12, 13, 14, 15, 16
RULE
S. Ct. R. 5.6 .................................................................. 7
OTHER AUTHORITIES
H.R. Rep. No. 102-317 (1991).................................... 11
NSA Cybersecurity Information,
Transition to Multi-Factor
Authentication (Aug. 2019),
https://bit.ly/35nCCpk.......................................... 13
Salesforce.com, Anti-Spam at
ExactTarget,
https://sforce.co/33bOEj7 ......................... 10, 11, 14

INTEREST OF AMICUS CURIAE
Amicus curiae salesforce.com, inc. (“Salesforce”) is
a global could computing company headquartered in
San Francisco. It provides an Internet-based cloud
computing platform that, among other things, facilitates effective communications between businesses
and their current and potential consumers who have
chosen to receive those communications.1 Such communication services are valuable precisely because
they are not random, but instead allow Salesforce’s
customers to connect to specific consumers who have
affirmatively opted in to receiving communications
from specific businesses—and are likely to be interested in the messages Salesforce’s customers send.
Salesforce’s platform, among other things, allows
businesses to send personalized text messages to consumers who have provided their cell phone numbers
for that purpose and consented to receiving such messages. Those text messages could be transactional
texts—for example, alerting consumers that their
monthly payments were received successfully. Or
they could be marketing texts—for example, offering
a discount off the consumer’s next purchase. As explained further below, Salesforce does not permit its
customers to send text messages to random cell phone
numbers.

1

Pursuant to Supreme Court Rule 37.6, counsel for amicus curiae states that no counsel for a party authored this brief in whole
or in part, and no party or counsel for a party, or any other person
other than amicus curiae or its counsel, made a monetary contribution intended to fund the preparation or submission of this
brief. All parties have consented in writing to the filing of this
brief.

2
This case is important to Salesforce because, under the Ninth Circuit’s incorrect interpretation of “automatic telephone dialing system” in the Telephone
Consumer Protection Act (“TCPA”), 47 U.S.C.
§ 227(a)(1), its customers could be subject to liability
that Congress never intended. None of Salesforce’s
services uses “random or sequential number generator[s],” as the relevant provision of the TCPA requires.
Id. Yet its platform has the “capacity” to allow its customers to “store” mobile telephone numbers and to
“dial”—or send text messages to—“such numbers.”
Pet. App. 6. Indeed, under the Ninth Circuit’s view
that such capacity is sufficient to trigger TCPA liability, it is difficult to see how any company could provide
targeted, non-random text-based communications services without risking TCPA liability; almost by definition, any device or system capable of sending text messages is capable of storing and dialing telephone numbers.
In other words, even though Salesforce designed
its platform to help its customers comply with the
plain text of the TCPA and to minimize the risk of unwanted text messages, its customers face potentially
crushing liability under the TCPA if the Ninth Circuit’s interpretation is allowed to stand. A statute designed to prevent unwanted communications would
thereby deter sales and marketing communications
that customers want to receive.
Accordingly, Salesforce has a strong interest in
the outcome of this case. And Salesforce urges this
Court to interpret the TCPA in accordance with its
plain text and to reject the Ninth Circuit’s erroneous
and limitless interpretation of “automatic telephone
dialing system.”

3
INTRODUCTION AND
SUMMARY OF ARGUMENT
As a technology-based effort to reduce unwanted
communications, Congress in the TCPA imposed
strict restrictions on calls placed using random or sequential number generators. The Ninth Circuit rewrote the statutory text to eliminate the requirement
that an automatic telephone dialing system use a random or sequential number generator and instead applied the TCPA’s restrictions to any device or system
that stores and dials telephone numbers. To achieve
that result, the Ninth Circuit ignored the plain text of
the statute, basic rules of grammar, and the rule that
statutes must be construed to avoid absurd results.
Salesforce submits this brief to explain some of
the troubling effects of the Ninth Circuit’s test, especially on Salesforce’s business, and to urge this Court
to confine the TCPA to its intended scope.
I. The Ninth Circuit’s interpretation of the TCPA
is unsupported by the plain text of the statute and violates bedrock rules of grammar. A modifier (“using a
random or sequential number generator”) that follows
the direct object (“telephone numbers to be called”) of
two verbs (“store” and “produce”)—and especially a
modifier set off by a comma—is understood to modify
both verbs. By adopting the atextual conclusion that
the modifier here applies only to “produce” and not
also to “store,” the Ninth Circuit impermissibly rewrote the statute.
Although it is not entirely clear why the Ninth
Circuit refused to interpret the statutory definition of
“automatic telephone dialing system” based on its
plain text, the court appears to have thought that it

4
could not do so because of the canon against surplusage. But even if the grammatical and natural reading
of a statutory text produces some superfluity, that
canon does not mean a court may rewrite the statute,
because ordinary speech and legislative texts frequently include some redundancy.
II. Remarkably, the Ninth Circuit did not conclude that its interpretation was compelled by the text
of the statute but instead reasoned that the statutory
definition is ambiguous. Yet it resolved that supposed
ambiguity by adopting an unreasonable reading that
sweeps in numerous communications devices and services that Congress never intended to restrict.
Salesforce’s platform could qualify as an automatic telephone dialing system under the Ninth Circuit’s interpretation, even though it has nothing in
common with the telemarketing practices Congress
targeted. It “stores” contact information from specific
consumers who want to receive—and have consented
to receiving—text messages from specific companies.
And it enables its customers to “dial”—or text—those
numbers to consenting consumers automatically. Yet
Salesforce has no interest in having its platform used
to spam consumers with unsolicited texts. To the contrary, it has policies forbidding random and unwanted
communications.
The Ninth Circuit’s interpretation would also apply to ubiquitous communications devices like
smartphones. It would sweep in hands-free dialing
systems in cars—even though it would be absurd to
suppose that a car is an automatic telephone dialing
system. And it would apply even to systems designed
to protect consumer privacy, such as two-factor authentication systems for sensitive accounts.

5
There is no way to cabin the far-reaching consequences of the Ninth Circuit’s approach. Salesforce
requires that its customers send text messages only to
consumers who have expressly consented to receiving
them. But the consent exception provides no protection in the event of good-faith and unavoidable mistakes—such as texts to recycled phone numbers or an
accidental text sent to the wrong contact list. To minimize such absurdities, proponents of the Ninth Circuit’s approach have read words into the statute, requiring that the relevant calls or texts be sent “automatically” or “without human intervention.” But
those limitations are found nowhere in the statutory
text. And because they are hopelessly imprecise, they
provide no clear guidance for companies like
Salesforce to conform their communications systems
to the statute.
III. Finally, the Ninth Circuit’s interpretation violates the canon of constitutional avoidance. Its reading of the TCPA would conflict with the First Amendment by restricting the free flow of information in a
way that is not remotely tailored to Congress’s goal of
preventing unsolicited calls. And it would deprive
businesses like Salesforce of due process and fair notice because there is no way to discern from the text of
the statute that any device capable of storing and dialing telephone numbers is an automatic telephone dialing system such that use of Salesforce’s platform
could subject its customers to liability. Interpreting a
purportedly “ambiguous” statute to apply to
Salesforce’s platform—when it designed that platform
to avoid random and unwanted calls and texts—is
manifestly inconsistent with fair notice.

6
ARGUMENT
Under the Ninth Circuit’s boundless interpretation of the TCPA’s autodialer provision, using
Salesforce’s effective and efficient platform to send
text messages could subject its customers to onerous
liability. Salesforce’s platform has nothing to do with
the telemarketing practices that Congress sought to
combat in the TCPA—calling random numbers to
make unsolicited and unwanted sales pitches or calling sequential numbers and tying up entire cellular
networks. Instead, Salesforce provides a platform
that enables its customers to communicate with consumers who want to receive—and have consented to
receiving—their texts. And Salesforce has policies in
place to prevent random, unsolicited, or unconsentedto texts. None of that makes a difference in the Ninth
Circuit’s view, because Salesforce’s platform is capable of helping its customers store and dial telephone
numbers. Congress did not intend the TCPA to sweep
so broadly or to prevent expected and desired communications between businesses and consumers.
I.

THE NINTH CIRCUIT’S INTERPRETATION OF
“AUTOMATIC TELEPHONE DIALING SYSTEM” IS
INCORRECT.

In enacting the TCPA, Congress did not seek to
restrict all calls to cell phones using any automated
equipment, much less to block desired and expected
communications between businesses and the public.
Instead, Congress prohibited calls using an “automatic telephone dialing system,” which Congress specifically and narrowly defined as “equipment which
has the capacity—(A) to store or produce telephone
numbers to be called, using a random or sequential
number generator; and (B) to dial such numbers.” 47
U.S.C. § 227(a)(1). As Facebook and the United States

7
correctly explain, that statutory definition encompasses “only equipment that uses random- or sequential-number-generation technology to store or produce
numbers.” Facebook Brief 2; see also U.S. Brief 14-15
(“The TCPA’s autodialer definition is . . . best understood to encompass only those devices that have the
capacity to use a random or sequential number generator.”).
This conclusion follows from the plain text of the
statute. See Lamie v. U.S. Tr., 540 U.S. 526, 534
(2004) (“[W]hen the statute’s language is plain, the
sole function of the courts—at least where the disposition required by the text is not absurd—is to enforce
it according to its terms.”) (internal quotation marks
omitted). Bedrock rules of grammar direct that the
modifier “using a random or sequential number generator”—which follows the direct object of both “store”
and “produce” and is set off by a comma—modifies
both “store” and “produce.” See Facebook Brief 23-25;
Glasser v. Hilton Grand Vacations Co., 948 F.3d 1301,
1306 (11th Cir. 2020) (“When two conjoined verbs (‘to
store or produce’) share a direct object (‘telephone
numbers to be called’), a modifier following that object
(‘using a random or sequential number generator’)
customarily modifies both verbs.”).
What grammar treatises teach, everyday speech
confirms. For example, this Court’s Rule 5.6 provides
that “[t]he fee for a duplicate certificate of admission
to the Bar bearing the seal of the Court is $15, and the
fee for a certificate of good standing is $10, payable to
the United States Supreme Court.” It is obvious from
the placement of the “payable” clause and the commas
that a check for either type of fee must be made out to
this Court.

8
In nevertheless concluding that the phrase “using
a random or sequential number generator” in the statute modifies “produce” but not “store,” the Ninth Circuit ignored this fundamental grammatical rule. It
also “contort[ed] the statutory text almost beyond
recognition.” Gadelhak v. AT&T Servs., Inc., 950 F.3d
458, 466 (7th Cir. 2020). The Ninth Circuit had to
“separate the statute’s two verbs (‘to store or produce’), place the verbs’ shared object (‘telephone numbers to be called’) in between those verbs, [and] then
insert a copy of that shared object [in]to the statute.”
Glasser, 948 F.3d at 1311. That approach “looks more
like ‘surgery’ . . . than interpretation.” Id.
If the Ninth Circuit’s reading were correct, the
comma in the statute would have to be moved and text
added—the statute would have to be changed to refer
to “the capacity—(A) to store telephone numbers to be
called, or to produce such numbers using a random or
sequential number generator; and (B) to dial such
numbers.” It would have been easy for Congress to
express what the Ninth Circuit read the statute as
saying, but it did not do so.
The Ninth Circuit did not explain why it believed
that the statutory definition “is not susceptible to a
straightforward interpretation based on the plain language alone.” Marks v. Crunch San Diego, LLC, 904
F.3d 1041, 1051 (9th Cir. 2018). But the court appears
to have concluded that reading the statute naturally—and grammatically—would render the verb
“store” superfluous. See id. at 1050 (noting plaintiff ’s
argument “that a number generator is not a storage
device; a device could not use ‘a random or sequential
number generator’ to store telephone numbers”); see
also, e.g., Duran v. La Boom Disco, Inc., 955 F.3d 279,
284 (2d Cir. 2020) (“It would be odd for Congress to

9
include both verbs if, together, they merely created redundancy in the statute.”).
But, as this Court has frequently noted, an argument that a particular interpretation of a statue
would introduce “surplusage or redundancy . . . is not
a silver bullet.” Rimini St., Inc. v. Oracle USA, Inc.,
139 S. Ct. 873, 881 (2019). After all, redundancy is
common in ordinary speech—note the Court’s use of
both surplusage and redundancy in that sentence—
and routine in legislation. Even if the word “store” in
the statutory definition here is somewhat superfluous,
that does not give a court license to rewrite the plain
text of the statute, when “the better overall reading of
the statute contains some redundancy.” Id.
II. THE NINTH CIRCUIT’S INTERPRETATION OF
THE STATUTE LEADS TO ABSURD AND
PERNICIOUS RESULTS.
Remarkably, the Ninth Circuit did not suggest
that its atextual and limitless interpretation was compelled by the plain text of the TCPA. Instead, it concluded that the statute was “ambiguous,” Marks, 904
F.3d at 1051, and resolved the supposed ambiguity by
adopting a reading that it believed “support[ed] the
TCPA’s animating purpose—protecting privacy by restricting unsolicited, automated telephone calls,” Pet.
App. 9. But even if the statute were ambiguous, the
Ninth Circuit’s interpretation is manifestly unreasonable. Any ambiguity should not be resolved by interpreting the TCPA to sweep in devices and systems—
like those provided by Salesforce, which has policies
forbidding unsolicited texts—that the TCPA was
never designed to regulate.
1. Salesforce’s text-messaging service could fall
within the Ninth Circuit’s definition of automatic telephone dialing system, even though it has nothing in

10
common with the pernicious telemarketing practices
Congress enacted the TCPA to stamp out.
Salesforce’s platform allows retailers and other
businesses to send personalized text messages to specific consumers who have provided their cell phone
numbers for that purpose—and consented to receiving
such texts. That platform works precisely because it
allows Salesforce’s customers to “store” and “dial” cell
phone numbers, and because it does not permit random or unsolicited text messages. In fact, Salesforce’s
customers “are forbidden to transmit unsolicited text
messages or commercial email (spam) via [its] system.” Salesforce.com, Anti-Spam at ExactTarget,
https://sforce.co/33bOEj7 (last visited Sept. 11, 2020).
One of Salesforce’s customers might, for example,
want to use transactional texts to communicate with
consenting consumers. Those texts could alert consumers that their automatic payments are about to
be—or have been—debited from their checking account. The system permits Salesforce’s customer to
store the consumers’ cell phone numbers when they
sign up for text-messaging alerts, and then send a text
message automatically on a particular date or when a
payment is made. Another of Salesforce’s customers
might want to use marketing texts to alert its consenting clients of an upcoming promotion. Or it might
want to stay in touch with consumers who have signed
up to receive marketing messages on a weekly or
monthly basis. Again, Salesforce’s system allows its
customers to store the numbers of consumers who sign
up, and then send text messages to those consumers
automatically.
In these ways (and many others), Salesforce’s
platform allows its customers to target only those consumers who are interested in and have consented to

11
receiving communications. Targeted communications—i.e., text messages sent to consumers who have
expressed an interest in a business’s products—are effective and efficient, benefitting both businesses who
wish to speak to a receptive audience and consumers
who want to hear their message.
Salesforce has no interest in allowing its platform
to be used for spamming members of the public with
unsolicited or unwanted text messages. Salesforce
recognizes that such random text messages are annoying and counterproductive. And it has adopted
policies that prevent this practice. See, e.g., AntiSpam at ExactTarget, supra (Salesforce “does not allow nor desire that any client use our services to send
unwanted text messages or commercial emails.”).
Salesforce also has the right to suspend a customer’s
access to its services if the customer sends unwanted
texts. See id. If Salesforce permitted text messages
to be sent to random consumers, that would simply
create negative consumer experiences, which would
harm Salesforce’s customers in the marketplace and
ultimately harm Salesforce itself.
Salesforce’s platform is designed to allow its customers to engage in expected and desired communications with consumers and to prevent random communications. Subjecting the use of that platform to liability under the TCPA simply because it has the capacity to store and dial telephone numbers would contravene Congress’s intent. Congress “d[id] not intend
for” the restrictions in the TCPA “to be a barrier to the
normal, expected or desired communications between
businesses and their customers.” H.R. Rep. No. 102317, at 17 (1991), available at 1991 WL 245201. Yet
that is the necessary consequence of the Ninth Circuit’s decision.

12
2. Under the TCPA, an “automatic telephone dialing system” includes any equipment which has a
particular “capacity,” whether or not the caller uses
that capacity to make any particular call. 47 U.S.C.
§ 227(a)(1). Thus, under the Ninth Circuit’s erroneous reading, a vast swath of communications devices
would be automatic telephone dialing systems, because any number of devices have the “capacity” to
store and dial telephone numbers.
For example, “[e]very iPhone today has that capacity right out of the box. An iPhone of course can
store telephone numbers; it can also send text messages automatically, for example by using the ‘Do Not
Disturb While Driving ’ function.” Gadelhak, 950 F.3d
at 467. And so can every other smartphone. Yet nothing in the TCPA suggests “that Congress could have
contemplated the applicability of the statute’s restrictions to the most commonplace phone device used
every day by the overwhelming majority of Americans.” ACA Int’l v. FCC, 885 F.3d 687, 699 (D.C. Cir.
2018).
Devices that store and dial cell phone numbers not
only are convenient, but also promote safety. Many
modern cars either include or can be connected to
voice-activated phones that store contact lists and can
dial those numbers hands free, allowing drivers to
keep their attention on the road. It is absurd to suppose that such cars are “automatic telephone dialing
systems,” and that Congress intended to make “any
call” from such a car unlawful.
47 U.S.C.
§ 227(b)(1)(A).
Moreover, systems that store and dial cell phone
numbers can further Congress’s goal of “protecting
privacy.” Pet. App. 9. Consider multi-factor authen-

13
tication systems for websites storing sensitive or confidential consumer information. When a consumer
logs in to his or her email or bank account from an
unknown device, these systems can send via text message a code that the consumer must enter to access
the account. The National Security Administration
recommends multi-factor authentication, such as
“[e]ntering a password . . . and receiving a one-timeuse code via SMS on a registered mobile device” as
“one of the most effective controls to protect an enterprise.” NSA Cybersecurity Information, Transition to
Multi-Factor
Authentication
1
(Aug.
2019),
https://bit.ly/35nCCpk. Yet such systems necessarily
“store” and automatically “dial” mobile telephone
numbers. By distorting the statutory definition of
“automatic telephone dialing systems” to encompass
such security systems, the Ninth Circuit hindered the
very policy goal Congress was attempting to advance.
3. Under the Ninth Circuit’s incorrect and unbounded interpretation, there would be no way under
the TCPA to prevent these absurd consequences.
First, the statue permits the use of an automatic
telephone dialing system for calls “made with the
prior express consent of the called party.” 47 U.S.C.
§ 227(b)(1)(A). But even with that exception, the
Ninth Circuit’s interpretation still would subject companies to potential liability despite good-faith attempts to comply with the TCPA.
Salesforce has policies designed to promote compliance with the TCPA. It requires its customers to
follow applicable laws, including laws requiring consent: Its “clients certify that they will use [its] services only to send messages . . . to customers and prospects that have expressly consented (opted-in) to re-

14
ceive them.” Anti-Spam at ExactTarget, supra (emphasis added). And it provides its customers with
templates for securing “double” opt-in consent from
consumers before their cell phone numbers are included on the customers’ contact lists. See id. Consumers opt in first by providing express consent to receiving text messages when they provide their cell
phone numbers to Salesforce’s customer. Then consumers receive a text message asking them to confirm
that they wish to be contacted through further texts.
Only if consumers reply “yes” to that message will
they remain on the relevant contact list for future
texts.
Nonetheless, texts can be misdirected. As Facebook explains, recycling of cell phone numbers is routine, and there is no reliable way to know whether a
particular number has been recycled. See Facebook
Brief 45. As a result, there is no way for a company
acting in good faith to guarantee that text messages
will be sent in all cases only to customers who have
expressly consented. Similarly, a consumer may try
to opt out from receiving future text messages, but the
systems designed to remove such consumers from contact lists may fail. Or the consumer may enter a mistaken cell number when signing up to receive product
alerts. Finally one of Salesforce’s customers may mistakenly send marketing text messages to the wrong
contact list (perhaps a list of consumers who have
opted out of receiving texts, rather than the list of
those who have opted in).
The TCPA was not designed to impose potentially
enormous penalties—of $500 per text or more—on
companies who make good-faith mistakes. See 47
U.S.C. § 227(b)(3)(B)-(C). Yet because the statute de-

15
clares it unlawful to “make any call . . . using any automatic telephone dialing system” absent express consent, all of those mistakes could result in liability under the Ninth Circuit’s holding. Id. § 227(b)(1)(A) (emphasis added).
Moreover, the statutory bar on using “an automatic telephone dialing system in such a way that two
or more telephone lines of a multi-line business are
engaged simultaneously” has no exception for express
consent. 47 U.S.C. § 227(b)(1)(D). Thus, if a company
sends a marketing text to multiple work phones at the
same company simultaneously, it could violate the
TCPA, even if every recipient of those messages has
consented to receiving texts.
Second, implicitly acknowledging the absurd
scope of holding that any device capable of storing and
dialing phone numbers is an automatic telephone dialing system, the Ninth Circuit and other courts that
agree with its reading of the TCPA have tried to limit
the implications of that approach by reading new
words into the statute. The Ninth Circuit held that
an automatic telephone dialing system must “have the
capacity to store numbers to be called and to dial such
numbers automatically.” Pet. App. 6 (emphasis
added; internal quotation marks omitted). And the
Second Circuit likewise has said that an automatic
telephone dialing system “is different from a non-[automatic telephone dialing system] merely because of
its ability to ‘dial’ numbers automatically” or “without
human intervention.” Duran, 955 F.3d at 288 (emphasis added).
These attempted non-textual limitations cannot
cure the more fundamental problems that the Ninth
Circuit’s incorrect reading creates, and in fact exacerbate the atextualism problem by adding text to the

16
statute that is not there. Under the plain text of the
statute, an automatic telephone dialing system is
equipment with the “capacity” to perform certain
functions, not equipment that is actually used in certain ways. 47 U.S.C. § 227(a)(1) (emphasis added).
And the TCPA declares it unlawful “to make any call”
to a cell phone—absent an emergency or express consent—“using any automatic telephone dialing system,” regardless of whether the call is placed automatically or with sufficient human intervention. Id.
§ 227(b)(1)(A). Thus, the only textually supportable
basis for limiting the TCPA’s sweep is to confine the
definition of automatic telephone dialing system to its
plain textual scope, not to invent additional limitations on the use of systems that Congress did not intend to cover in the first place.
More importantly, from the perspective of
Salesforce, those limiting principles are hopelessly
imprecise. If an iPhone user sets his or her phone to
reply automatically “I’m driving with Do Not Disturb
While Driving turned on. I’ll see your message when
I get where I’m going” to all incoming calls, is that sufficient human intervention?
What if one of
Salesforce’s customers selects a particular contact list
for a tailored message—are those messages sent automatically? Or suppose a small business owner manually adds cell phone numbers as the recipients of a text
message, but sets the message to be delivered “automatically” at a later time—would that fall within the
statutory prohibition under the Ninth Circuit’s view?
The best way to avoid endless litigation over the
line between permissible and impermissible conduct—and to provide certainty to companies that regularly communicate with consumers and prospects —
is not to add new words to the statutory text to avoid

17
overbreadth problems created by an atextual expansion of the words that are actually there, but rather to
interpret the TCPA as written. Although it is not this
Court’s business to change the meaning of text to correct bad policy choices, in this case the plain language
of the text itself corrects the severe disconnect between the result reached by the Ninth Circuit and
Congress’s intent as manifested by the statute. The
TCPA directs a bright line—to be an automatic telephone dialing system, a communications device or system must use “a random or sequential number generator.” 47 U.S.C. § 227(a)(1). Salesforce has designed
its platform not to do so, and that should put customers using its platform in the clear with respect to this
aspect of the TCPA. Salesforce respectfully submits
that this Court should construe the TCPA according
to its plain text and reject the boundless and countertextual interpretation offered by the Ninth Circuit.
III. THE NINTH CIRCUIT’S INTERPRETATION
CONFLICTS WITH THE PRINCIPLE OF
CONSTITUTIONAL AVOIDANCE.
Although the question on which the Court granted
certiorari is one of statutory interpretation, the TCPA
(like all statutes) must be construed to avoid constitutional concerns. Even if the Ninth Circuit were correct that the autodialer definition is “ambiguous,” in
the sense that it is susceptible to two reasonable interpretations (it is not, for the reasons noted above),
any such ambiguity would have to be resolved in favor
of the construction that preserves the statute’s constitutionality. See Clark v. Martinez, 543 U.S. 371, 38081 (2005) (“when deciding which of two plausible statutory constructions to adopt, a court must consider
the necessary consequences of its choice”). In other

18
words, if one construction “would raise a multitude of
constitutional problems, the other should prevail.” Id.
Here, the Ninth Circuit’s interpretation of the
TCPA raises a host of constitutional concerns. Facebook’s merits brief explains the serious First Amendment problem posed by holding that any device capable of storing and dialing telephone numbers is an automatic telephone dialing system. See Facebook Brief
47-51. Salesforce agrees with those arguments. Its
communications services are designed to promote “the
free flow of commercial information” between their
customers and receptive members of the public.
Thompson v. W. States Med. Ctr., 535 U.S. 357, 366
(2002) (internal quotation marks omitted). Penalizing
that information exchange whenever it involves a device capable of storing and dialing telephone numbers
is vastly “more extensive than is necessary to serve”
the government’s interests in protecting privacy and
reducing unwanted telephone calls. Id. at 367 (internal quotation marks omitted).
In addition, “[i]t is a basic principle of due process
that an enactment is void for vagueness if its prohibitions are not clearly defined.” Grayned v. City of Rockford, 408 U.S. 104, 108 (1972). Laws must give “fair
warning” and permit “the person of ordinary intelligence a reasonable opportunity to know what is prohibited, so that he may act accordingly.” Id.; see also
Sessions v. Dimaya, 138 S. Ct. 1204, 1228 (2018)
(opinion of Gorsuch, J.) (“Fair notice of the law’s demands . . . is the first essential of due process.”) (internal quotation marks omitted). This concern is especially pronounced in cases involving First Amendment
rights, where “rigorous adherence to those requirements is necessary to ensure that ambiguity does not

19
chill protected speech.” FCC v. Fox Television Stations, Inc., 567 U.S. 239, 253-54 (2012).
Salesforce has grown its business in reliance on
reading the TCPA according to basic rules of grammar
and common sense. It has designed products and systems that do not use a random or sequential number
generator, and thus are not autodialers under a construction of the TCPA that even the Ninth Circuit
acknowledged is plausible. Interpreting a statue that
is “ambiguous on its face,” Marks, 904 F.3d at 1051, to
encompass communications systems that were carefully designed to avoid the use of random or sequential number generators violates due process and fair
notice. To reinterpret the TCPA now to render any
equipment with the capacity to store and dial telephone numbers unlawful is manifestly inconsistent
with principles of fair notice. And it is inconceivable
that there are any reliance or notice interests on the
other side of the equation.
To be sure, “Congress in retrospect drafted the
1991 law for the moment but not for the duration. The
focus on number generation eradicated one form of
pernicious telemarketing but failed to account for how
business needs and technology would evolve.”
Glasser, 948 F.3d at 1309. Salesforce does not dispute
that novel forms of telemarketing may continue to
proliferate. But it is up to the political branches, not
the judiciary, to take account of three decades of evolving technology and update the TCPA to address current problems. By assuming for itself the power to address perceived problems raised by modern forms of
telemarketing, the Ninth Circuit effectively outlawed
systems—like Salesforce’s—that facilitate effective
and welcome communications between businesses

20
and the public. Whether that decision was inadvertent or otherwise, it was one for the political branches,
not the judiciary, to make.
CONCLUSION
For the foregoing reasons, the judgment of the
court of appeals should be reversed.
Respectfully submitted.
KRISTIN A. LINSLEY
GIBSON, DUNN & CRUTCHER LLP
555 Mission Street
San Francisco, CA 94105

MARK A. PERRY
Counsel of Record
JACOB T. SPENCER
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
(202) 955-8500
MPerry@gibsondunn.com

Counsel for salesforce.com, inc.

September 11, 2020

